<html>
<title> - GIRLS IN THE JUVENILE JUSTICE SYSTEM: STRATEGIES TO HELP GIRLS ACHIEVE THEIR FULL POTENTIAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
GIRLS IN THE JUVENILE JUSTICE SYSTEM: STRATEGIES TO HELP GIRLS ACHIEVE 
                          THEIR FULL POTENTIAL
=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2009

                               __________

                           Serial No. 111-77

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
52-941                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            OCTOBER 20, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

Ms. Eileen R. Larence, Director, Homeland Security and Justice 
  Issues, United States Government Accountability Office, 
  Washington, DC
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Ms. Lawanda Ravoira, Director, NCCD Center for Girls and Young 
  Women, Jacksonville, FL
  Oral Testimony.................................................    18
  Prepared Statement.............................................    22
Ms. Tiffany Rivera, GEMS, New York, NY
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Ms. Nadiyah Shereff, San Francisco, CA
  Oral Testimony.................................................    52
  Prepared Statement.............................................    54
Ms. C. Jackie Jackson, Ph.D., Executive Director, Girls, Inc. of 
  the Greater Peninsula, Hampton, VA
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Mr. Thomas J. Stickrath, Director, Ohio Department of Youth 
  Services, Columbus, OH
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     4

                                APPENDIX

Material Submitted for the Hearing Record........................    85


GIRLS IN THE JUVENILE JUSTICE SYSTEM: STRATEGIES TO HELP GIRLS ACHIEVE 
                          THEIR FULL POTENTIAL

                              ----------                              


                       TUESDAY, OCTOBER 20, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Pierluisi, 
Gohmert, and Poe.
    Staff Present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Jesselyn McCurdy, Counsel; Karen Wilkinson (Fellow) 
Federal Public Defenders Office, Detailee; Veronica Eligan, 
Professional Staff Member; (Minority) Caroline Lynch, Counsel; 
and Kimani Little, Counsel.
    Mr. Scott. Welcome to today's Subcommittee on Crime hearing 
on ``Girls in the Juvenile Justice System: Strategies to Help 
Girls Achieve Their Full Potential.''
    Ladies and gentlemen, juvenile courts are experiencing a 
growing number of cases involving girls. The number of girls in 
detention and on probation has almost doubled between 1985 and 
2005. The growing number of girls in the system has highlighted 
the fact that girls have more intense treatment needs than 
boys. A recent study found that delinquent girls have a 
substantially higher rate of mental health problems than 
delinquent boys. And one of the most common characteristics of 
girls who are involved in the juvenile and criminal justice 
system is a history of physical or sexual victimization.
    Chronically, delinquent girls who were interviewed for an 
Oregon study reported that they had their first sexual 
encounter at an average age of about 7 years old. The majority 
of girls who are involved in the juvenile justice system report 
suffering from some form of physical, emotional, or sexual 
abuse. Sexual, physical, and emotional trauma is a recurrent 
theme in the lives of girls in the justice system. A study 
found that while only 3 percent of boys interviewed had 
documented histories of physical abuse; 77 percent of girls had 
suffered abuse.
    The family lives of girls involved in the juvenile justice 
system are often chaotic at best and dysfunctional at worst. 
Family disruptions often result in girls being placed in the 
child welfare system. Many of these girls have parents who have 
abused drugs or were incarcerated at some point in their lives, 
and some of them end up moving from one family to another 
within the child welfare system, and then into the juvenile 
delinquency system.
    The abuse that adolescent girls suffer results in them 
having higher rates of depression and posttraumatic stress 
disorder than boys. And as a result of this abuse, girls are 
more likely than boys to be diagnosed with dual disorders such 
as mental health and substance abuse disorders.
    School failure and negative attitudes toward school are 
even more adequate predictors of delinquency in girls than 
boys. Truancy, suspension, poor grades or expulsion are 
frequently the most significant risk factors for girls who are 
repeat offenders.
    In recent years, prevention and intervention programs are 
focusing on specific needs of girls based on gender-specific 
risk factors. A few reports have interviewed a number of 
effective gender-responsive programs and found several common 
aspects to the most successful programs for girls. These 
programs are community, family, and relationship-focused, and 
in addition they provide comprehensive services and a safe 
place for the girls. And we have several expert witnesses who 
will testify at today's hearing about what types of strategies 
and services have been successful in helping girls fulfill 
their full potential.
    Before they testify, it is my pleasure to recognize the 
Ranking Member of the Subcommittee, the gentleman from Texas, 
Judge Louie Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    Today's hearing will examine the subject of girls in State 
juvenile justice systems. The goal of the hearing is to help 
identify strategies that will help girls reach their full 
potential. This hearing is the most recent installment in a 
series of hearings that this Subcommittee has held on issues 
within the juvenile justice system. Administering justice to 
juvenile offenders has largely been the domain of States, as 
there is no Federal juvenile justice system.
    Although the Federal Government does not play a direct role 
in administering juvenile justice, there are a number of 
juvenile justice agencies within the Federal Government and 
grant programs that work with State juvenile justice systems. 
The lead Federal agency in this effort is the Office of 
Juvenile Justice and Delinquency Prevention, or OJJDP, at the 
Department of Justice. Since its creation, OJJDP has supported 
States and communities in their efforts to develop and 
implement effective programs to prevent delinquency and 
intervene after a juvenile has offended.
    For example, from fiscal years 2007 through 2009, Congress 
provided OJJDP almost $1.1 billion for grants to States, 
localities, and organizations for a variety of juvenile justice 
programs. Despite these efforts, many observers have noted 
that, for more than a decade, girls have increasingly become 
involved in the juvenile justice system.
    From 1995 through 2005, delinquency caseloads for girls in 
juvenile justice courts nationwide increased 15 percent, while 
boys' caseloads decreased by 12 percent. Also, from 1995 to 
2005, the number of girls' cases nationwide involving their 
detention increased 49 percent compared to a 7 percent increase 
for boys.
    This trend in juvenile delinquency has not gone unnoticed 
by Federal, State, and local policymakers. As the number of 
female juvenile offenders increase, State juvenile justice 
officials have noted that juvenile female offenders generally 
had more serious and wide-ranging service needs than their male 
counterparts. Many of these needs include treatment for 
substance abuse and mental health conditions.
    To address these needs, the Department of Justice tells us 
that over the last 10 to 15 years, at least 25 States have 
developed new programming for girls in the juvenile justice 
system. For example, in the early 1990's, Minnesota began 
awarding model program grants to community-based juvenile 
offender programs that provided gender-specific programs to 
girls.
    Maryland developed a program in Baltimore to serve the 
population of girls on probation. In fact, the State was able 
to make the initial changes without requiring any extra 
funding. The State formed a Female Intervention Team, or FIT, 
that teamed up with area programs that were already working 
with girls, including the Urban League, the Local Physicians 
Association, and the Girl Scouts of America.
    The state of Ohio created the Stepdown program to help with 
reentry of juvenile offenders. The program focused on easing 
the transition from correctional facilities to private 
residential facilities and then back home. The program aimed to 
have family engagement at every stage of care and supervision. 
The program was further designed to offer the female youth 
intensive family therapy, counseling, life skills, and 
education to address emotional and mental health issues, family 
conflict issues like substance and physical abuse, as well as 
educational problems.
    Clearly, many States have the capacity and willingness to 
craft solutions to problems within their jurisdiction. The 
limited role of OJJDP should be to work with States to evaluate 
and identify programs that successfully address the unique 
challenges of female juvenile offenders.
    As Chairman Scott had mentioned, many of the female 
juvenile offenders were found to have histories of sexual 
abuse. What I found as a judge was nearly all of them had no 
relationship with a father in their lives. So that seems to be 
something that also is not addressed, and not something we can 
wave a wand and fix from Washington. But I would certainly be 
interested in the input that you have on these important 
issues.
    I look forward to your testimony, and yield back the 
balance of my time.
    Mr. Scott. Thank you. The gentleman from Michigan, the 
Chairman of the full Committee, Mr. Conyers. The gentlemen is 
recognized for 5 minutes.
    Mr. Conyers. Thank you very much, Mr. Chairman. I am proud 
of you and the judge. Maybe it is a couple of judges up here, 
ex-judges, and an Attorney General, all part of this important 
Committee, are here with us today for this discussion. I guess 
we are all used to the fact that girls and women have different 
problems in the criminal justice system, and we have to do much 
more about it than we have.
    I am especially glad to see Ms. Rivera and Ms. Shereff 
here. I don't know how much you testify before congressional 
Committees, but we welcome your presence and look forward to 
what you are going to tell us.
    And Members of the Committee and Mr. Chairman, I am not 
happy that the Acting Director over at Department of Justice, 
Jeff Slowikowski, did not see fit to come before the Committee 
today. I just called his boss, the Director of the Office of 
Legislative Affairs, to tell him so. This is an important 
hearing. What is he doing over there at Ninth and Constitution 
that he can't be before this Committee right now with everybody 
else?
    The fact of the matter is that the authorization for 
juvenile justice delinquency expired in 2007, and he is still 
sitting down there at a desk somewhere talking about he can't 
make it this afternoon. Well, brother, he is going to make it 
sooner than he thought he was, because I don't think that that 
is a way to treat this subject; that we are all talking to 
ourselves, and they are sitting over--they are the ones that 
are going to put all the recommendations into place. So looking 
at it on television doesn't get it for me, and I want to meet 
with him and the Director to see if we can't get this thing 
brought together more and more.
    Now, there are two Committees in the Congress that have 
jurisdiction over this subject: Education and Labor, and 
Judiciary. We are working with Chairman Miller and Chairman 
Scott and the judges to make sure we craft some legislation 
that is going to get us somewhere. And so this is not a good 
foot.
    And I will go to the Attorney General, too. We won't stop 
with the Director if this isn't good enough. I want something. 
I want some follow-up, and I want all of these big-shots 
downtown that can't get out here to meet with the Chairman and 
those of us on the Committee as soon as practicable, as soon as 
we get the benefit of the discussion of everybody else, these 
six fine witnesses that are here before us.
    And I ask unanimous consent to put my statement in the 
record, and thank you very much.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    In the last 20 years, the number of young women entering the 
juvenile justice system has increased exponentially. Accordingly, 
today's hearing provides a critical opportunity for us to consider how 
the justice system can be made more effective generally and how the 
federal government can more effectively assist state and local 
communities to proactively keep these girls out of trouble.
    In 1980, 20% of all juvenile arrests were girls. By the mid-1990s, 
that percentage rose to about 25%. As of 2007, young women accounted 
for 29% of all juvenile arrests.
    Here's an additional statistic. Between 1990 to 2001, there was 
more than a 50% increase in the number of juvenile delinquency cases 
that resulted in girls entering detention facilities.
    Researchers have attributed these increases in part to the rising 
number of arrests and detention for technical violations of probation 
and parole and for warrants.
    In addition, the number of girls arrested for some types of violent 
crimes, such as assaults, has substantially increased. Between 1998 and 
2007, for example, juvenile male arrests for simple assault declined by 
4%, while juvenile female arrests for the same crime increased by 10%.
    Today's hearing should hopefully provide answers to some important 
questions.
    First, we need to know what are the factors behind these 
statistics. For example, is the growing number of girls charged with 
assault the result of changes in policies, such as the mandatory arrest 
requirements for domestic violence incidents, or simply the result of 
changing attitudes toward women and girls in the justice system.
    Second, we need to know how the federal government can better 
prevent juvenile delinquency. As prevention and intervention efforts 
have developed at the state and local levels in recent years, it is 
essential that the federal government have information about what 
efforts are working best.
    For instance, the Office of Juvenile Justice and Delinquency 
Prevention at the Justice Department is responsible for preventing and 
responding to juvenile crime, delinquency and victimization as well as 
helping states improve their juvenile justice systems.
    OJJDP is suppose to play an important role in protecting girls in 
the system by implementing prevention and intervention programs that 
reduce the number of girls' involved in the system.
    In July, however, the Government Accountability Office released a 
report on OJJDP's efforts to improve programs that work with girls in 
the juvenile justice system.
    This report concluded that while OJJDP has funded a 6-year, $2.6 
million study group to learn about effective and promising girls 
delinquency programs, it was unable to identify any effective programs.
    Today's hearing to understand why it has been so difficult to 
identify effective programs for girls.
    The GAO report also identified a third concern, namely, that OJJDP 
lacks a comprehensive plan to meet its objectives to fund research for 
girls' delinquency programs. Although no one from OJJDP is testifying 
today, I would like the witnesses to discuss how that Office can 
provide a better roadmap of its work that will result in better support 
for successful girls' programs.
    I look forward to hearing from the witnesses today and hope that 
this hearing will serve to further our important efforts to ensure that 
girls are given a chance to achieve their full potential.
                               __________

    Mr. Scott. Thank you. We have also been joined by the judge 
from Texas, Mr. Poe, and the gentleman from Puerto Rico Mr. 
Pierluisi who is with us today, and would ask any additional 
statements, without objection, will be placed in the record.
    We have a panel of witnesses to help us consider the issues 
for the day. Our first witness will be Ms. Eileen Larence, who 
currently serves as Director of Homeland Security and Justice 
Issues at the U.S. Accountability Office. In her capacity at 
the GAO, she manages congressional requests to assess various 
law enforcement and Department of Justice issues as well as the 
state of terrorism-related information-sharing since 9/11.
    Our second witness will be Dr. Lawanda Ravoira. She is the 
Director of the National Council of Crime and Delinquency 
Center for Girls and Young Women. Over 13 years she has served 
as the President and CEO of PACE Center for Girls, a Florida 
nonprofit organization that provides gender-responsive support 
services to girls.
    Our third witness will be Tiffany Ravira. She has overcome 
many obstacles in her short 19 years, but her encounter with 
Girls Education and Mentoring Services, the GEMS program in New 
York, which is dedicated to advocating for victims of 
commercial sexual exploitation of children, turned her life 
around. She is now working for GEMS as a youth outreach worker.
    Our next witness will be Nadiyah Shereff. She is 23 years 
old, and was born and raised in San Francisco without either of 
her biological parents, because both were incarcerated. She 
attended some of the worst public schools in California, and at 
the age of 13 became involved in the juvenile justice system. 
She learned about the Center for Young Women's Development, the 
CYWD, while in juvenile hall and has worked in several 
leadership positions in that organization.
    Our next witness would be Dr. Jackie Jackson, Executive 
Director of Girls, Incorporated, of the Greater Peninsula of 
Virginia. Girls, Incorporated is a national nonprofit youth 
organization dedicated to empowering girls. Girls, Inc., of the 
Greater Peninsula, sponsors pregnancy and drug prevention 
programs, in addition to economic, science, and technological 
education for girls in the southeast Virginia region. Dr. 
Jackson's doctorate is in human services, with a specialization 
in counseling services.
    Our final witness will be Mr. Thomas Stickrath, who will 
testify last. He was appointed as the Director of the Ohio 
Department of Youth Services in 2005, and received the 2009 
American Correctional Association's E.R. Cass Correctional 
Achievement Award, which is considered ACA's highest honor.
    So we will begin with Ms. Larence.

TESTIMONY OF EILEEN R. LARENCE, DIRECTOR, HOMELAND SECURITY AND 
JUSTICE ISSUES, UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Ms. Larence. Thank you. Chairman Conyers, Chairman Scott, 
Ranking Member Gohmert, and Members of the Subcommittee, I am 
pleased to discuss the results of our review of the Department 
of Justice's efforts to identify effective programs that 
address girls' delinquency. As you all noted in your opening 
statements, the juvenile justice system has seen an increase in 
the number of girls' delinquency cases. In 2007, 22 States 
reported that this is an issue affecting their juvenile justice 
systems.
    Experience shows that the factors contributing to girls' 
delinquency are complex and the effects can be serious. 
Delinquent girls can have higher mortality rates, dysfunctional 
and violent relationships, poor educational achievement, and 
less stable work histories than their peers; and yet there have 
been few programs and little research devoted to this issue, 
although both are increasing.
    The Office of Juvenile Justice and Delinquency Prevention 
within the Department takes the Federal lead in helping to 
identify what programs are effective for juveniles and in 
providing grant funding for these programs.
    You asked us to review the Office's efforts to assess the 
effectiveness of girls' delinquency programs and its plans to 
address its findings. In the response, we reviewed the results 
from the ongoing Girls Study Group which the Office funded with 
a $2.6 million multiyear cooperative agreement in 2004. The 
group's goals include to identify effective or promising 
programs, gaps in research, and recommendations for the future.
    In summary we found that, first, the study group concluded 
few girls' delinquency programs had been assessed, and none of 
the assessments showed conclusive evidence that the programs 
were effective. Second, relatively few resources have been 
devoted to this issue. And, third, justice needs a transparent 
plan to address the group's findings to help break the cycle of 
delinquency.
    The Girls Study Group, comprised of 15 members, mainly lead 
researchers in the field, identified 61 programs that 
specifically address girls' delinquency. But they found that 
only 17 programs had been studied, and none of the studies 
showed conclusive evidence of effectiveness. As a result, among 
other things, the group called for increased efforts to 
evaluate programs to determine what works and to publicize 
successful programs to the juvenile justice community.
    We determined that the group's approach was in line with 
social science practices and standards, but some researchers 
and practitioners were critical of the methods used. They 
feared that the group's standards for effectiveness, the 
program assessments, based on a randomized controlled research 
design, were too hard to meet, and that the group thus 
eliminated promising programs that communities could use. Both 
the group and Justice defended the approach, however, saying 
that they wanted to ensure that they identify programs certain 
to work before communities spent further money on them.
    The Juvenile Justice Office has had few discretionary funds 
to devote to identifying effective girls' programs. The Office 
has not had funding targeted to research and evaluation since 
it received $10 million in 2005 for these purposes. Since then, 
the Office has set aside about $33 million through 2008--or 
about 3 percent--from its other appropriation accounts to fund 
such research. But the girls' delinquency issues compete with 
many other juvenile justice issues for these set-aside funds.
    Likewise, girls' programs compete with other juvenile 
programs for State and local grant funding. For example, 
Justice reports that in fiscal years 2007 and 2008, States used 
only 1 percent of their Title II formula grants on girls' 
programs, not quite $2 million, and that it could provide only 
about another $1.8 million in 2007 in discretionary grants for 
this purpose.
    Based on the Girls Study Group findings, Justice determined 
that it needs to better prepare programs for evaluation and to 
fund more evaluations. Therefore, the Juvenile Justice Office 
is funding a workshop this month to help about 10 to 12 
programs prepare for evaluation. It also hopes to issue a 
solicitation in early 2010 to support a limited number of 
program evaluations, depending on available funding.
    Finally, the Office expects to provide more training, 
technical assistance, information dissemination, and programs 
on girls' delinquency issues in the long term; but the Office 
could not provide a document showing the steps it would take, 
the people it would hold responsible, the deadlines it would 
set, and the funding it would commit that would provide 
transparency and accountability to the Congress, States, 
communities, and research field, that it was serious about 
addressing girls' delinquency problems.
    We recommended that the Office develop such a plan and 
agreed with our recommendation. As a first step, it expects to 
issue an office-wide juvenile justice plan, the first one in 7 
years, that is to discuss girls' issues, among others, by the 
end of this year.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Larence follows:]
                Prepared Statement of Eileen R. Larence
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Ms. Ravoira.

 TESTIMONY OF LAWANDA RAVOIRA, DIRECTOR, NCCD CENTER FOR GIRLS 
               AND YOUNG WOMEN, JACKSONVILLE, FL

    Ms. Ravoira. Thank you. Mr. Chairman and distinguished 
Members of the Committee, thank you for inviting the NCCD 
Center for Girls and Young Women to come and provide testimony 
at this critical hearing.
    Located in Jacksonville, Florida, the NCCD Center for Girls 
and Young Women is grounded in the courageous life experiences 
of girls and young women who are caught in the juvenile justice 
and the child welfare system. We seek to be the passionate 
voice for activism to ensure equitable, humane, and gender 
appropriate responses to improve outcomes for girls.
    Prior to coming to this hearing, I had the opportunity to 
meet with girls who are spending much of their adolescence 
behind razor wire in facilities in Florida. And I asked the 
girls, what would they say if they had the opportunity to come 
and speak to individuals who had the power to create change in 
how the juvenile justice system treats girls. And Maria, a 
thoughtful, intelligent, and unusually quiet young woman, 
simply said, ``Ask the adults to be there for us, to do what 
our parents couldn't do, be somebody we didn't have, be a 
friend. We don't have anyone really to talk to. That is where 
you can start to help us, whether we are good or bad. I have no 
one. And I really try to be good, but I always mess up.''
    What is Maria's story? Maria's dad left home when she was 
7, after being convicted of sexually abusing her from ages 4 to 
7 years old. And by age 11, Maria was taken away from her 
mother because she had been beaten with a coat hanger, and she 
was placed in foster care.
    By age 12, bouncing from foster care home to foster care 
home, Maria started smoking marijuana, which escalated to using 
cocaine, prescription drugs, and finally crack cocaine. She ran 
away repeatedly from the foster care homes, and by age 14 she 
was arrested for drug paraphernalia. And then she was violated 
for probation for running away again from foster care. And over 
the past 3 years, before I met Maria, she had been in and out 
of razor-wire institutions. And what is important to understand 
in her life, she has never been treated for the sexual abuse 
and she has never been treated for the trauma that she 
experienced as a young child. She tried to be good, and she 
always messed up.
    What I believe, after two decades of advocating and 
providing services to girls and young women in the juvenile 
justice system, it is not our girls who continue to mess up; 
indeed, it is the juvenile justice system that continues to 
fail girls.
    What we know, as you have said, girls are the fastest 
growing segment of the juvenile justice system. And although 
crime rates are decreasing for both boys and girls, the rate of 
decrease for girls is significantly less. Also, girls are 
entering the system at much younger ages. The majority of 
girls, about 50 percent, are coming into the system and being 
incarcerated at 15 years or younger.
    Girls' needs are distinctly different from boys'. What we 
know is that girls' victimization and abuse is the pathway into 
the juvenile justice system; yet when they get into the system, 
their status as victim is quickly forgotten. And despite the 
fact that they are presenting with serious mental health 
issues, posttraumatic stress disorders, as well as attempts of 
self-harm and suicide, the very practices inside of 
institutions continue to revictimize and traumatize girls. 
These routine practices, if you have not had the opportunity to 
be inside of institutions, often trigger the posttraumatic 
stress disorders that were with girls prior to coming into the 
system.
    What are these practices and policies that we are asking 
you to get involved in? They start with the disrobing of girls, 
often in front of men, male staff observing girls taking 
showers. We are witnessing strip searches of girls. We are also 
looking at the overuse of physical restraints which is simply a 
reenactment oftentimes of the rape and sexual abuse that girls 
have suffered prior to coming into the system. We also know 
that in many systems girls are simply an afterthought.
    What we also know about girls and young women is an 
estimated 10 percent of the girls coming into the system are 
pregnant and 30 percent are parents. Yet in some States and 
jurisdictions, we are still shackling girls who go into labor 
when we are transporting them to the hospital to have their 
child, and what we are told is that they are a risk to run.
    Well, as I look at the panel, I am assuming that none of 
you have given birth, except maybe the counsel. However, if you 
have been with someone who has given birth, I am certain that 
you would agree that the last thing on their mind is running 
away. This is barbaric treatment that warrants our attention.
    And girls' abuse outside of the institution, which our 
studies show us is as high as 92 percent, is the dark heart of 
America. But inside of institutions, we also are witnessing 
abuse of girls. And, in fact, the U.S. Justice Department has 
sued nine States and two territories, alleging abuse, 
inadequate mental health care, as well as dangerous use of 
restraints for our girls.
    There is an urgency to act, but yet girls continue to be a 
low priority and too often an afterthought. We believe that 
girls continue to be squeezed into programs that were ill-
designed and ill-conceived. And not only are they ill-conceived 
for our girls, I am not saying that they are designed for boys, 
either. But we do know that there is an emphasis over razor 
wire and control instead of treatment, and we consistently miss 
the mark. And the cost to society is high.
    There are severe short-term and long-term consequences 
where we are looking at girls locked up with high need and low 
public safety risk at sometimes over $50,000 a year to 
incarcerate girls. And we know that this predicts an entire 
host of issues long term, including physical and mental health 
issues, substance abuse issues, future arrests and 
incarceration. And our girls who end up being locked up in 
these facilities are at future risk for domestic violence and 
other violent relationships, as well as dysfunctional parenting 
and losing custody of their children. We must invest in 
prevention and intervention services at the community-based 
level.
    We are asking: How many more girls need to be scarred by 
years of neglect and abuse before we act? We know what to do. 
But will we continue to mess up as a Nation by not investing in 
gender-responsive services that are designed to meet the needs 
of girls and to turn their lives around?
    The NCCD Center for Girls and Young Women is calling for a 
profound shift in how we respond to girls and young women. Our 
recommendations chart both a fiscally responsible and a 
service-effective direction for addressing the escalating 
numbers of girls coming into the system. We are calling for 
equitable treatment for a fair and balanced juvenile justice 
system that holds girls accountable for their behavior, 
balanced with a commitment to addressing their needs.
    We know that at the Federal level we need assistance in 
addressing the criminalization of girls' behavior that is 
grounded in mental health issues and abuse issues, where girls 
do not pose a public safety risk and yet they are locked up 
with the guise of getting mental health treatment. We are 
asking for an examination of policies and practices that 
negatively impact girls. And we are asking for a review of the 
resource allocation that, although the Juvenile Justice and 
Delinquency Prevention Act--which was passed in 1992--required 
gender-specific services, funding has been woefully inadequate.
    Changing how we respond to girls and young women is not an 
option. It is vital to the health and well-being of our local 
communities, our State, and our Nation, and certainly the next 
generation of children. Our girls are entitled to nothing less.
    We are hopeful that you will work with us in accepting 
Maria's challenge to be there for girls in the juvenile justice 
system, to do the things their parents couldn't do and, thus 
far, we have failed to do. And we believe this hearing is 
absolutely a critical step in the right direction. Thank you.
    [The prepared statement of Ms. Ravoira follows:]
                 Prepared Statement of Lawanda Ravoira
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Ms. Rivera.

        TESTIMONY OF TIFFANY RIVERA, GEMS, NEW YORK, NY

    Ms. Rivera. My name is Tiffany Rivera. I am 19 years old, 
and I am currently an outreach worker for GEMS.
    Growing up, my mom and dad were addicted to drugs. My dad 
used to beat on our mom and all of her kids. My dad went to 
jail when I was a little girl, and my mom was left alone to 
raise us six kids. I remember my mom always bouncing me from 
home to home.
    When I was 7 years old, I lived with my godmother for 2 
years. Out of those 2 years, I was raped by my godbrother. When 
I was 9 years old, I remember telling my mother I didn't want 
to live there anymore, so she sent me to live with my aunt in 
Long Island. I stayed there until I was 11 years old, because 
my aunt told me she felt that my mother wasn't going to be 
around much longer. My mother was very sick. Even though at 
this point she had stopped using cigarettes and using heroin, 
she was dealing with the after effects of using it for so many 
years.
    When I was 12 years old, my mother was hit by a car and 
passed away. Once my mother passed away, I started running away 
and got involved with the streets. I was a victim of CSEC. I 
had a pimp that physically abused me and raped me almost every 
day. He forced me to sell my body for money. I was with him for 
2 years before having the chance to run away from him.
    I got involved with gangs and smoked weed. I was put in a 
mental institution at 14 years old. Once I was released, I went 
back to the streets because I did not receive real help or 
counseling at the hospital. All they did was put me on 
medication.
    Right after my 15th birthday, I was jumped by two 20-year-
old women and four men. I stabbed one of the girls in self-
defense. I was arrested 3 days later. I was locked up in the 
juvenile justice system for close to 2 years. While being in 
detention, I had over a dozen fights. I was jumped and 
assaulted by other residents, and I can remember the staff 
turning their backs on me and acting as if nothing happened.
    If you were in there for prostitution or your family 
history was written down in your file, the counselors used to 
put your business on blast. Confidentiality was never kept. If 
you had an STD or something, they would talk and spread your 
information with other girls in there. If they didn't like you, 
they would lie to another girl so that you can get beat up. 
There was always favoritism. I remember being sick a few times 
and putting in a sick call but never being called for it. They 
would always wait until you needed to go to the hospital before 
seeing you.
    When I got arrested, I was kind of happy because I felt as 
if I was being saved. I was hoping to receive help and start 
dealing with my problems, but it was as if they completely 
ignored that part. I asked to see a counselor and they told me 
okay. It took 3 months for me to see one. It was never 
consistent, and it didn't help. All we did was play games.
    I felt as if they made us keep our problems inside. It 
didn't seem like they really wanted to know the true story, the 
real issues that I have been dealing with my whole life; they 
just made me take three medications and told me I was just an 
angry girl.
    There were times we had good times, like when they had 
special performances for us to do during the holidays, but 
those times didn't fill the void of being in detention with no 
one there to really care about me or ask about how I was really 
dealing with issues of loss, abuse, and trauma.
    While being in detention, I met GEMS through their outreach 
workers, and they referred me to their program. GEMS stands for 
Girls Education and Mentoring Services. It is the only 
nonprofit organization in New York State that specifically 
deals with commercially sexually exploited domestic trafficked 
girls and young women.
    I was released on 5 years' probation into GEMS independent 
living home. GEMS has helped me finish school. They helped me 
deal with my family issues and the closure of it not being my 
fault. I remember coming to GEMS and hoping things weren't like 
detention. I wanted to see a real counselor and just stay away 
from the streets. GEMS asked me what I wanted from them and my 
goals. I told them, and they set up a safety plan with me and 
ways to meet my goals. They worked with me to make sure I met 
my goals.
    After I met my goals, I felt like a relief and that things 
can change and get better in my life. GEMS has always been 
there when I needed them and when I was in trouble or just 
needed someone to vent to. They never judged me or turned their 
back on me, and they helped me feel at home. I was able to grow 
up and deal with my problems. I understand life in the bigger 
picture now.
    I was able to further my passion in helping others and 
giving back. They gave me the opportunity with a job as an 
outreach worker. Now I go to juvenile detention centers, 
schools, child welfare, and other programs to talk to young 
girls. They have helped me with permanent housing. Although I 
am currently still on probation, my life has changed and I have 
done a 180. I can finally say I am happy with the way things 
are going with my life and okay with what has happened in my 
past. I know I have learned so much from my past and can use my 
experience to help other young women who may be going through 
something similar.
    When I go to detention centers I see the same patterns 
happening over and over again. I see staff actually gossiping 
about the girls right in front of them. It makes me upset 
because I know it is not cool, and that it can make a girl want 
to shut down completely, and, when someone is truly trying to 
help her, she refuses the help. When I sit and talk to these 
girls, I let them know that I will not turn my back on them and 
I will always listen and give them the best advice I can. If I 
have the resources that can help them, I make sure to give it 
to them. I build a trust bond between the young ladies and 
myself. Sometimes the girls just want someone to talk to, and I 
make sure I can be that person. I tell them if they want 
someone to write to, they can write me and I will make sure I 
write them back. We have a pen-pal program at GEMS to help the 
girls in detention know that there are people out here who care 
about them and want to see them succeed and heal.
    I hope to see more caring staff at these detentions that 
are well-trained. I hope to see that these girls receive 
services that they deserve and that best help them deal with 
their problems, whether it is being a rape victim, a gang 
member, a drug abuser, or victim of commercial sexual 
exploitation. I hope that they get to see better therapists 
with more consistency. Most of all, I hope that all adults who 
are responsible for this will listen to my testimony and work 
to make the essential changes to help our troubled and often 
neglected youth.
    Mr. Scott. Thank you. Thank you very much.
    [The prepared statement of Ms. Rivera follows:]
                  Prepared Statement of Tiffany Rivera
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Ms. Shereff.

        TESTIMONY OF NADIYAH SHEREFF, SAN FRANCISCO, CA

    Ms. Shereff. My name is Nadiyah Shereff. I am 23 years old. 
I was born in a women's prison where my mother was locked up. 
When I was 2 days old, I was taken from my mother and placed 
with my grandmother in San Francisco, California. I never knew 
my father, and my mother was incarcerated my entire life.
    I was raised by my grandmother who was forced to work 
several jobs to pay for the extra expense of caring for me. We 
lived in public housing, also known as the projects. Every day 
on my way to school, I had to navigate through drug dealers, 
drug addicts, and poor folks looking for their next crime 
victim.
    I saw my first shooting when I was 9 years old. My house 
was accidentally shot into twice. Luckily, no one was hit. 
Although shootings were a regular theme where I am from, the 
instantaneous fear that comes when you hear a gunshot always 
left me and my family trembling for days and saying things 
like, We have got to get out of these projects. We all knew it 
was a very real possibility that one of us could be 
accidentally or purposefully shot and killed.
    Over the years, I witnessed countless murders, many of 
which were classmates and friends. This made it difficult for 
me to focus in school, and when I was 13 I began smoking 
marijuana and drinking as a way to escape the daily violence. 
At that time, I didn't see much of a future for myself due in 
part to a lack of positive role models. The positive role 
models that existed at the time were not made visible to me in 
my neighborhood or in my school. I attended the worst of the 
worst public schools, complete with rundown facilities, 
outdated books, curricula that undervalued minority 
communities, and overall had a very low standard of excellence.
    At 13, I got arrested for the first time and was charged 
with assault. I was taken to San Francisco's juvenile hall and 
began a cycle of going in and out of detention. I was locked up 
10 different times within a 2-year period.
    Inside juvie, I met other girls like myself who were there 
for prostitution, assault, theft, and truancy. We were not 
violent girls. We were girls who were hurting. All of us were 
from the same neighborhood, poor families, and seemed to have 
the same disposition of trauma and anger mixed with 
hopelessness.
    Being confined to a tiny cement room was one of the hardest 
things I have ever had to experience. Being locked up, all I 
could do was reflect on my life, but it didn't seem to help. I 
became even more withdrawn and angry. I felt completely 
disconnected from my family, from friends, and the counselors 
inside offered no support for the real problems I was facing. I 
felt like nobody believed that I could actually do something 
positive with my life, especially the staff inside the 
facilities who treated me like a case number, not like a 
person.
    At that time, what I needed was to talk to folks about all 
I had been through, to feel connected to people, to feel useful 
so that I could find my own direction in life. I needed to heal 
from the trauma and be supported with love and encouragement.
    It was inside the halls of juvenile hall that I was 
introduced to the Center for Young Women's Development, also 
known as CYWD. Members of their organization came monthly to 
meet with all the young women in lockup. When it was my turn to 
meet with them, Marlene Sanchez, who is now the executive 
director, talked to me in a way that showed me she felt I had 
the potential to do something with my life. She said, As soon 
as you come out, come straight to CYWD. We can support you. I 
learned that they had a program run by and for previously 
incarcerated young women. I mean it when I say this: That 
meeting changed my life forever.
    Once out, I applied for the Sisters Rising 9-month 
employment training program and was hired in spite of just 
having gotten out of lockup. I spent the next 9 months taking 
part in healing circles, one-on-one counseling, and building 
sisterhood with other young women who shared similar 
experiences. I learned about our hard and proud history as 
people of color, things they never taught us in school. I 
learned about the criminal justice system and disproportionate 
minority confinement. I learned how to advocate for myself and 
other young women, and how to organize our community to fight 
for fairer policies and practices.
    CYWD gave me opportunities to lead projects and workshops 
that helped improve my community, sparking in me a passion for 
social justice and community work. The staff treated me like 
someone who was important, rather than a juvenile delinquent. 
They helped me enroll back in school and got me a tutor to get 
and keep my grades up.
    What if I had gone directly into CYWD instead of being 
locked up? And when I think about all the girls who are 
detained, how much better their lives would be if they were 
placed in programs like CYWD instead of jail.
    CYWD's youth leadership development model empowers young 
women by providing them with the opportunity to advance within 
the organization. I have worked at CYWD in several leadership 
roles, beginning as a Sisters Rising intern, and now as the 
newest and youngest board member. CYWD has inspired me to dream 
more, learn more, and do more for the betterment of my future 
and the future of other young people.
    By sharing my personal testimony, I hope to convey how 
CYWD's programs and youth leadership development models are a 
long-term investment for the future of young women and the 
future of this country. Through building community, having a 
space to heal, learning about my history, and having access to 
leadership opportunities, I became empowered. I was able to 
complete my juvenile probation, graduate high school, and go to 
college. I recently received my--I recently graduated from 
California State University Eastbay with a bachelor's degree in 
political science, and I am now in the process of applying to 
law school.
    Thank you for your time.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Shereff follows:]
                 Prepared Statement of Nadiyah Shereff
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Dr. Jackson.

  TESTIMONY OF C. JACKIE JACKSON, Ph.D., EXECUTIVE DIRECTOR, 
       GIRLS, INC. OF THE GREATER PENINSULA, HAMPTON, VA

    Ms. Jackson. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify before you today. I am 
Jackie Jackson, executive director of Girls, Incorporated of 
the Greater Peninsula in Hampton, Virginia. My organization has 
been serving girls on the peninsula for over 60 years. Our 
local affiliate was founded as Girls Club of the Greater 
Peninsula in 1947. Based on our long history of service to 
girls, we honor the opportunity to provide our perspective 
today.
    As you have heard all the witnesses before me, 
representation of girls in the juvenile justice system has been 
on the rise for the last 20 years. Under the leadership of the 
National Juvenile Justice and Delinquency Prevention Coalition, 
the National Girls Inc.'s Office has worked with like-minded 
organizations and put forth specific recommendations for 
changes in Federal law to improve conditions and service for 
adjudicated girls.
    Girls, Inc. advocates diverting girls away from detention 
whenever possible and providing needed service for victims of 
abuse. We are also very concerned with the fate of status 
offenders, who are disproportionately girls, and often 
incarcerated over technical violations despite the fact that 
they pose no safety threat to the community.
    I respectfully ask your attention to these critical issues; 
however, this afternoon I want to speak to you about primary 
prevention, the most cost-effective way to address juvenile 
justice crimes.
    First, generally speaking, we must invest in prevention; 15 
million children and youth are released from school every day 
without adult supervision. Unfortunately, after-school hours 
become high-risk hours for juvenile crime and other dangers for 
both boys and girls. Girls, Inc. and other programs like ours 
fill that gap by providing transportation, positive adult role 
models, and safe environment for children of working families. 
We serve girls every day from 2 p.m. to 6 p.m. during the 
school year, and from 6 a.m. to 6 p.m. during the summer.
    But quality prevention does not mean just a place to store 
children and teens with a ping-pong table and a television set. 
Girls at Girls, Inc. participate in proven research-based 
programs that nurtures their healthy development and reduce 
negative behavior.
    For example, an experimental design evaluation of Girls, 
Inc. substance abuse prevention program found that girls who 
participated were half as likely as nonparticipants to report 
involvement with abusive substance. Scientific evaluation of 
youth programs has shown reduction in vandalism, assault, drug 
activity, and juvenile arrests when compared to other 
controlled groups.
    In addition to bettering the lives of children, prevention 
programs also save money. In my own community, the average cost 
to house a child in one of Hampton's facilities is about 
$51,000. Nationwide, estimates for secured detention ranges 
anywhere from $32,000 to $65,000 per year per youth. In 
contrast, 1 year of comprehensive after-school programs and 
summer program at Girls, Inc. costs less than $2,000.
    However, despite the obvious return on the investment of 
these programs, we at Girls, Inc. and other similar 
organizations are struggling. Families come to us all the time 
that do not even have the ability to pay. We try to make Girls, 
Inc. affordable for them by charging just $5 per day for us to 
maintain quality staff and programming and also providing 
transportation. We need investment from Congress and from the 
community.
    Secondly, girls prevention programs should be gender-
specific, as we have heard. The male and female offender 
populations are different. Girls commit fewer violent offenses 
than boys. They are more likely to be status offenders. And 
girls enter the juvenile justice system with a disturbing 
history of emotional, physical, and sexual abuse.
    So, clearly, prevention programs should not be a one-size-
fits-all. Our Girls, Inc. pregnancy prevention program and 
newborn program provide a forum for discussing child abuse with 
trained professional staff in an all-girls environment. It is 
critically important for girls to feel safe and free to discuss 
such sensitive issues.
    In addition, research has also showed that girls will fight 
with members and siblings more frequently than boys. Some 
research suggests that girls are three times as likely as boys 
to assault a family member. Prevention programs designed for 
boys, then, will fail to address these issues adequately for 
girls.
    Finally, substance abuse prevention programs must be 
gender-specific as well. Girls' substance rates have now caught 
up with those of boys, but girls are more likely to accept 
substance from an older boyfriend and girls are more likely to 
use substance to manage stress or to lose weight. Prevention 
programs for girls must address healthy relationships, anxiety, 
and body image issues in order to meet the difference of girls' 
needs. Unfortunately, however, our Nation affords too little 
attention to vulnerable girls.
    While preparing for this testimony, the local police 
department could not readily provide me with data breakdowns 
for juvenile crime by gender, while they quickly provided 
breakdowns of the 11 most violent offenses for the last year.
    Finally, prevention should be strength-based. All children, 
whether or not we call them at-risk, deserve positive programs, 
not session after session of what they can't or they shouldn't 
do. At Girls, Inc. we offer financial literacy programs that 
help girls learn about planning for a financial secure future. 
We also offer media literacy programs which help girls 
recognize how music videos, lyrics, television shows, and 
movies glamorize sex, violence, and drugs.
    Girls, Inc. programs are fun, so girls want to come to 
Girls, Inc. Programs are in community centers, churches, and 
anywhere that girls are, regardless of school boundaries. Girls 
get to know each other in a positive environment, working 
together, and they forget about which school or neighborhood 
they are from. When tension may arise later between rivalry 
schools or neighborhoods, Girls, Inc. know each other as 
friends, and they don't feed into the false rumors and 
reputations that causes so much danger and problems in our 
community today.
    So I want to commend this Committee for convening this 
hearing today, and especially for listening to the voices of 
girls. Thank you.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Jackson follows:]
                Prepared Statement of C. Jackie Jackson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Mr. Stickrath.

TESTIMONY OF THOMAS J. STICKRATH, DIRECTOR, OHIO DEPARTMENT OF 
                  YOUTH SERVICES, COLUMBUS, OH

    Mr. Stickrath. Thank you, Chairman Conyers, Chairman Scott, 
Ranking Member Gohmert, and distinguished Members.
    As mentioned earlier, I am the Director of the Ohio 
Department of Youth Services. And having spent over 30 years 
managing various aspects of adult and juvenile corrections, I 
know that female offenders present a particular set of 
challenges and rewards, and in many cases require more time and 
energy to manage.
    Many practitioners, like myself and like you, have heard 
that work with girls, already know that in many ways our 
current juvenile justice system is designed for male offenders. 
And criminologists continue to study the differences between 
male and female pathways to crime. They tell us that girls 
differ in their reactions to sexual abuse and other 
maltreatment, family and other life stressors, attachment and 
bonding, relationship violence, depression, anxiety, and peer 
victimization.
    Mr. Chairman, Mr. Gohmert, the girls committed to our 
agency look similar to those that you described earlier; 91 
percent are on our mental health caseload. Most have substance 
abuse issues. Over half have attempted suicide. And nearly all 
have experienced early childhood trauma. And while the average 
age of our female population is 16, the average school grade 
level is only seventh grade.
    My vision in Ohio has been to reduce admissions of youthful 
offenders to our large State institutions, consistent with 
public safety, and to build our community capacity. By 
providing research and data to our courts, youthful offenders 
are more likely to be placed in the environment most 
appropriate for rehabilitation, and the collaborative efforts 
of our agency and Ohio's juvenile courts have supported a 
decrease, in the population of girls, of 65 percent over the 
past 3 years.
    Recognizing the need for a consistent and validated 
approach to evaluating youth throughout their involvement in 
our system, we created an Ohio indigenous assessment system so 
that juvenile courts could speak a common language. And I am 
pleased to report that this system was normed and validated on 
both genders separately, and adjustments were made to develop a 
final set of parameters that incorporate the different needs 
and risk levels of boys and girls.
    We have taken to heart the research and the lessons learned 
from working with the female population. Five years ago, 
allegations of abuse, lack of mental health treatment, and 
scarce education plagued the girls' facility, much as you heard 
from the earlier witness. Since then, we have worked hard to 
change the milieu into one that is less penal, more program 
structured, and better prepared to effectively care for the 
particular challenges that this population presents.
    Examples include instructing our employees that come in 
contact with girls, from security staff to cafeteria workers, 
in a research-based training which covers topics such as 
posttraumatic stress disorder; intervention strategies to 
reduce the use of restraints and seclusion; creating comfort 
rooms in all of our female units, therapeutic spaces that are 
designed to serve as quiet places of retreat to help youth calm 
down and avert a crisis; developing a state-of-the-art mental 
health unit for girls which is richly staffed by a 
multidisciplinary team of professionals; and implementing a 
new, comprehensive, evidence-based and gender-responsive 
treatment program for our female population. The programming 
will be grounded in cognitive behavioral ideas and principles.
    We also work to strengthen each girl's practical life 
skills, career planning and reentry, to ensure a well-planned 
community reentry strategy which is vital for any offender 
returning home.
    And although the work we do within our facilities to 
address the specific needs of girls is critical, the majority 
of girls in Ohio's juvenile justice system are not committed to 
our agency, so it is vitally important for our local courts to 
have effective community tools to address the needs of this 
population. And new programs are showing promise in working 
with girls at Ohio in our community, including our behavioral 
health juvenile justice initiatives.
    Ohio, like other States, has struggled to find appropriate 
methods of managing the very challenging population of juvenile 
offenders. And jurisdictions across the country often create 
programs that may feel good but are not evidence-based and may 
not work, so we need research and evaluation support to ensure 
that the programs being administered are not harmful to the 
youth but, in fact, yield the desired successful outcomes.
    With OJJDP-funded research and program evaluations, States 
will not have to reinvent the wheel when establishing new 
programs for juvenile offenders. I believe that supporting the 
research for evidence-based programs will, in the long run, 
work to save precious State and national resources, enhance 
public safety, and provide effective interventions for juvenile 
offenders.
    Thank you for the opportunity to appear before you today on 
this very important issue.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Stickrath follows:]
               Prepared Statement of Thomas J. Stickrath
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. And I want to thank all of our witnesses for 
testifying. This is tremendous information.
    We are going to ask questions under the 5-minute rule, and 
I will begin with asking Mr. Stickrath: You indicated a 
question on restraints testimony. We heard testimony about 
women being restrained during childbirth. Do you have a comment 
on that?
    Mr. Stickrath. Well, the use of restraints and the overuse 
of restraints has been a concern of mine and something that we 
saw I think in our system, as probably other systems. And so we 
have worked--we just actually completed a renewed round of 
training on use of restraints and how to appropriately deal 
with youth when that situation arises. It is a concern probably 
in nearly every detention system and State juvenile system, and 
requires, I think, hiring the right people with the right kind 
of training and avoiding those situations.
    Mr. Scott. Is there a standard specifically on childbirth--
restraints during childbirth?
    Mr. Stickrath. That would be something--and fortunately we 
have not had the degree of childbirth issues in Ohio that some 
other States have had--but that is something we would avoid in 
Ohio.
    Mr. Scott. And you had also indicated a need for 
evaluations. Do you have specific topics that would be helpful 
to you to have more information on?
    Mr. Stickrath. Yes, Mr. Chairman. As Mr. Gohmert indicated, 
there have been a lot of programs that are being implemented 
and tried in counties and jurisdictions and States across the 
country, including in Ohio. But, as I said, too often they 
might look good or they might feel good, like when I first did 
a boot camp and I was real proud of what I thought was going to 
be the result until the research came out.
    So I think the kind of evaluation of programing, of making 
sure that there is--based in evidence, I think would be 
helpful.
    Mr. Scott. Let me ask Tiffany and Nadiyah what kinds of 
programs are most important to turning people's lives around, 
like what happened in your cases. What elements are there in 
the programs that are most effective? 
    Ms. Shereff. Certainly, programs like the Center for Young 
Women's Development and Girls, Inc., GEMS, who offer 
counseling, because a lot of times we are committing acts 
because there is a lot going on. And so I think that it is 
important to have that counseling and have the support to kind 
of get at the underlying reasons of why we are acting out and 
then just having a strong supportive sisterhood, you know.
    Ms. Rivera. Also, programs that specifically deal with the 
trauma that these girls dealt with, whether it is family drug 
abuse--programs that specifically help them get through the 
family issues they had in the past and are able to overcome it, 
or whether they were raped or something, programs that 
specifically deal with that and they are around other people 
who have experienced the same thing so they know they are not 
alone, because often times girls feel everything that happened 
to them, just happened to them and nobody else, so they act out 
on that.
    Ms. Shereff. And then also one of the greatest things about 
being at the Center for Young Women's Development for me was 
the fact that I was hired as an intern. And so that employment 
piece is very critical. As I mentioned, I was able to move up 
within the organization. So also having employment programs as 
well as other support.
    Mr. Scott. Thank you. Dr. Ravoira, you mentioned foster 
care. What is the problem with foster care that causes people 
to be bounced around and not having a secure youth?
    Ms. Ravoira. What we found in the research that we 
conducted in Florida, we have a research report called: A 
Rallying Cry for Change, a significant number of the girls 
ending in juvenile justice had been in foster care. And they 
were running from foster care.
    I think it gets to the issue of foster care parents are not 
trained either on how to work with young girls and women. And 
so the foster care parents get overwhelmed by the issues that 
girls bring into the home, and it is the unaddressed trauma, it 
is some of the mental health issues that girls are bringing, 
and so they will run.
    So I think it goes back to a training issue in both child 
welfare as well as the juvenile justice system and a culture 
that doesn't really celebrate all that is right about teenage 
girls. So foster care parents have no idea how they are 
intervening in trying to control girls, how that can trigger 
their behaviors.
    Mr. Scott. Thank you. Dr. Jackson, are the girls in your 
program already in the system?
    Ms. Jackson. Well, fortunately, we only have one girl that 
had actually been in the system. We have served last year over 
1,100 girls. And I think that is pretty good that we have only 
one that was in the system.
    When I say in the system, she didn't stay over 30 days 
within the system, 2 years ago, and she's no longer with the 
program.
    Mr. Scott. Now all of the others, how are they selected to 
participate?
    Ms. Jackson. Well, we recruit from schools. We have a 
partnership with all the school systems in Hampton and Newport 
News and what we do is pass out flyers and they take those 
flyers home to the parents. One thing, too, that I would like 
to add, the importance of parent involvement at an early age. 
That is very important.
    And the way that girls register for our program is pretty 
much like you will in a college. It is a semester. So every 
semester we have contact with those parents that are 
registering those girls. Also, each girl who leaves our sight 
has to sign out--has to be signed out by a parent or a guardian 
and also at that time we can at that time interact with the 
parents.
    And girls see the stability in being at Girls, Inc. They 
know Monday through Friday that we will be there and that we 
expect them to be there. So when they are brought in through 
the transportation, they will sign in and they will sign out by 
someone that their parent had identified for them to be picked 
up. And that is including the teenagers.
    Mr. Scott. Thank you.
    Mr. Gohmert.
    Mr. Gohmert. I want to thank all the witnesses for their 
wonderful testimony. Tiffany and Nadiyah, I appreciate the 
example you are setting just by being here and by letting 
people know that you realize the kind of self worth I hope you 
fully realize that you have and the difference you make.
    I didn't recall either one of you testifying but it has 
been brought up in some of the statistics, did either one of 
you consider taking your own life?
    Ms. Shereff. No.
    Ms. Rivera. Yes, I have. It started around I guess the age 
of 13. Even while being locked up, I used to--I mean I thought 
about it. Never really tried. I mean I have cut myself 
repeatedly. But I remember one time being in juvenile detention 
and I cut myself and it was kind of like a cry out for help for 
somebody to come and talk to me. I had cut wound on my arms for 
about 2 weeks before anybody even realized that I cut myself.
    Mr. Gohmert. Nadiyah.
    Ms. Shereff. No.
    Mr. Gohmert. So you realized early on you had value, right?
    Ms. Shereff. Yes, but I have several friends and have been 
in detention with young women who have attempted suicide.
    Mr. Gohmert. Apparently, it is a common thing. And it seems 
like the difference is--and it has been mentioned here--when 
somebody let's you know that you have value, that you make a 
difference, that they care about you. Correct?
    Ms. Rivera. Uh-huh.
    Mr. Gohmert. And it seems like the programs that are most 
successful like we have heard about here today is where that is 
conveyed--it seems it is true, whether it is guys or girls. 
Sometimes it is harder to get across to a guy because they are 
too busy acting tough--but that they have value.
    Ms. Jackson, you mentioned the importance of parental 
involvement, but given the statistics that we know exist, that 
can't be too easy to get parents involved, is it?
    Ms. Jackson. No, it is not easy at all. A lot of times it 
is not even the parents; it is the counselors that are bringing 
the young people in and signing them out. It is grandparents. 
It is other people; foster parents.
    And so when we say parents' involvement, just an adult 
person that is going to come in and after we are finished with 
them for the day, then we hope that someone will continue the 
process of what we are doing.
    So when we say parent involvement, we are just talking 
about the other adult that is going to take over where we left 
off when they go home.
    Mr. Gohmert. And if there is no follow-up, then the chances 
of success are drastically minimized, right?
    Ms. Jackson. Yes. We like to say also that the girls in our 
program grow with our program. Girls can come into our program 
in the second or third grade and they will come back the next 
year. So they begin to grow up in Girls, Inc. Since I have been 
with Girls, Inc., we have had about a 75 percent repeat of 
girls coming back through our program.
    Mr. Gohmert. Dr. Ravoira, you mentioned about Maria and her 
quote that asks the adults to be there for us to do what our 
parents couldn't do. Be somebody we didn't have. And she 
mentioned she had no one.
    But I come back to what seems to me to be the biggest 
question, and maybe it is not something we have done adequate 
studies on, but why couldn't the parents be there for them? Why 
wouldn't they be there for them? Because it seems like whether 
it is a parent, it is a grandparent, someone; a counselor, 
someone like yourselves that conveys that message, that this 
child has value and they mean something and do great things, 
that there has got to be something at the heart of why there 
are so many parents that don't fill that need.
    Have you looked at that issue at all?
    Ms. Ravoira. I spent 14 years as the President and CEO of 
PACE Center for Girls, where we served about 4,000 girls 
annually.
    Mr. Gohmert. Does PACE stand for something?
    Ms. Ravoira. PACE stands for Practical, Academic, and 
Cultural Education. It is a day treatment model; a diversion 
program to keep girls from penetrating further into the 
juvenile justice system.
    You know, what we found, about 75 percent of the girls that 
were served at PACE were coming from single-parent households, 
particularly moms. Many of the moms were working two or three 
jobs just to keep a house for the general children to live in.
    So they were taking care of their children. The moms were 
overwhelmed. And there were very few support systems in the 
community. And as the girls had greater needs and there was no 
support systems coming in and just trying to keep the family 
together, yet we are willing to invest in $50,000 a year to 
remove a daughter from the home as opposed to investing in 
keeping a family together.
    And there are models of programs where we can go into the 
home, that are very cost-effective, and try to heal that 
fractured family and keep them together. Because I will tell 
you, in my 20 years of doing this work, families want to do a 
good job, the majority of the families I worked with, but they 
are overwhelmed by just trying to make it day by day.
    So I think it is whether or not we can provide the services 
to keep families together. And I think the girls probably found 
that. Or, whether it was a grandmother or an auntie or a mom, 
there are certainly family members who are trying.
    And so in my testimony, I am not blaming the family. I am 
saying that we need to wrap our arms around families who are in 
crisis as opposed to breaking them apart and sending their 
daughters 6 hours away from home.
    Mr. Gohmert. I would certainly agree with that; that to get 
to the very heart seems like it would be helpful to know why 
the family is in crisis. I have seen the same thing; mothers 
working two or three jobs trying to make it, so they are not 
there, and then some gang member shoots somebody and they ended 
up in my court. And so I understand that. But, as you 
mentioned, most of them were single-parent homes. And we come 
back to: Why is there such an epidemic? Why is the dad a 
deadbeat that never gets across to his precious daughter just 
how much worth she really has.
    Anyway, I see my time has expired, but I appreciate it, 
Chairman. Thank you all very much.
    Mr. Scott. Thank you. The gentleman from Michigan, the 
Chairman of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Scott. I am really 
impressed with the six of you, especially the young lady that 
is going to law school. I have encouraged a lot of people to go 
to law school.
    Tiffany, could I encourage you to consider it? I could.
    Ms. Rivera. I want to do special victims, a detective.
    Mr. Conyers. You want to be a detective? Well, detectives 
go to law school.
    Ms. Rivera. I do.
    Mr. Conyers. You do. Okay. You know how to respond, don't 
you? That is great. I appreciate your cooperation.
    Before I get started, just a note. There are only seven men 
in this room. How do I know? I counted them. That is not 
counting there are four up here. I counted them. And what I 
read into this, Judge Gohmert, is that there are women that are 
at this hearing that have an intense interest in this subject 
matter. This is not just Tuesday afternoon, Chairman, that it 
just so happened, a lot of women came by 2141; it doesn't mean 
anything special. It does. It means something I interpret as 
very, very important to them.
    If we could hear any of their stories that wanted to come 
forward, I bet it would enrich this hearing even beyond what 
has already happened.
    Now here is the work part.
    Mr. Gohmert. Would the gentleman yield?
    Mr. Conyers. Of course I would yield to the judge.
    Mr. Gohmert. I think we would be open to anyone who wanted 
to submit anything in writing that was here telling us their 
stories, anything they had to submit.
    Thank you for yielding.
    Mr. Conyers. Yes. That is a great idea. How do we make this 
hearing--we can't sit in a hearing much longer than we are 
going to sit in it. And here is what I have suggested through 
my chief of staff to the Chairman and to the judge. How about 
all of us that can and will, let's gather in an informal 
setting and discuss some of the--we will have staff with us--
and let's talk about what it is we want the Department of 
Justice to do. And we called my little errant friend, whom I 
have forgiven now; I am not angry at him anymore; we are going 
to be friends--to get himself down here right away after this 
hearing. I presume he had enough initiative to turn on the 
television screen so that he heard what we have benefited from. 
And let's get down to business.
    Now I also--our former Attorney General for Puerto Rico 
just told me why he may not have shown up. And we forgive him 
for that, too. The GAO ripped them from one end to the other in 
how they were dealing with girls and women in delinquency 
settings.
    Okay. We understand. He said, Well, look, I'm not going to 
face these guys today. I'm busy. And we understand that. But 
Staff Attorney McCurdy said that they conceded to all of the 
problems in the GAO criticism. Now that is a good step forward, 
isn't it? It is not a back and forth about who did what and who 
is wrong and the finger pointing.
    So we want to sit down constructively for a short while and 
let's get this--and we have invited Chairman Miller's staff to 
join us because we are going to work out a bill together. They 
ought to be glad that we are not going to work on the bill 
ourselves. But we share in the Committees, don't we? We don't 
take each other's jurisdiction unless severely pressed.
    So that is what I propose to Chairman Scott that we do 
immediately after this hearing. This is a permanent record that 
goes into American congressional judiciary history. But we are 
going to meet off the record. We are going to roll up our 
sleeves and start moving--the bill on this subject is 2 years 
late. No wonder so little has been done. And we want to make up 
for lost time, don't we?
    That is how I propose that we do it, Chairman Scott.
    Mr. Scott. Thank you. We will do.
    The gentleman from Puerto Rico.
    Mr. Pierluisi. I likewise thank all the witnesses. I am 
particularly disturbed that OJJDP is not present here. They 
should have been here just listening to you and participating 
in this exchange. So I welcome what the Chairman is proposing. 
I think it is the right thing to do.
    I am troubled by a couple of things. First of all, with 
respect to Ms. Larence, the GAO's report, it seems to me that 
there are no standards or goals or benchmarks or expectations 
are being imposed, or at least laid out when giving out all 
this Federal funding. That is the impression I have got. Am I 
right or wrong? They fund these programs and they don't set any 
standards at the outset.
    Ms. Larence. It has been 7 years since they had an overall 
plan that articulated their strategies and goals for their 
juvenile justice programs. Somewhat in their defense, a lot of 
the moneys are statutorily congressionally directed so there is 
maybe not as much money that they have discretion over. So 
maybe that influenced their decisions about how seriously they 
needed to do that plan. But they are making a commitment to 
have one by the end of this calendar year.
    Mr. Pierluisi. I see. So if we come up with a bill, I guess 
we can set some meaningful standards that would actually take 
into account what you have been telling us today.
    Another thing that really troubled me is this business 
about male guards watching girls in the showers and watching 
while girls are being stripped. That is outrageous.
    Ms. Ravoira, what is going on here? Is it that we don't 
have enough female in the labor force to do these jobs?
    Ms. Ravoira. I think it is deeper than that. I think it is 
a culture in the juvenile justice system in many instances that 
doesn't honor and respect girls and that it is a system that is 
designed for custody and control as opposed to rehabilitation 
and addressing the issues that drive girls into the system.
    And training is an issue. Staff have got--there isn't any 
protocol that mandates gender-responsive training for staff who 
are inside of these institutions. So when you have a culture 
that is designed without even considering girls and the needs 
of girls and young women and that emphasizes custody and 
control and controlling behavior and not what you heard from 
these young women, the issues that are really driving that 
behavior, you create a culture that is extremely abusive and 
just negates and further victimizes and traumatizes girls and 
young women.
    Mr. Pierluisi. Finally, because I don't want to belabor my 
comments, but I just hear all this about lack of counseling, 
not good enough counseling out there. So I wonder, when 
reviewing all these programs, did you see a lot of programs 
that are actually encouraging good counseling and intensive 
counseling? I refer to you, Ms. Larence.
    Ms. Larence. We did not look at the individual programs, 
but the Girls Study Group looked at 61 programs that they had 
identified specifically for girls. They ranged in a number of 
issues, including substance abuse, mental health, and a wide 
menu of programs.
    Mr. Pierluisi. Sounds to me that that is something we could 
do as Members of Congress, is encourage better counseling for 
all these girls out there who really need it.
    So that is all I have for now. Again, I thank you.
    By the way, I tell both of you, Tiffany and Nadiyah, you 
did very well. I am not sure I could do as well sitting there. 
Keep it up.
    Ms. Shereff. Thank you.
    Mr. Scott. Thank you. I had a couple of other questions.
    First, Ms. Larence, you indicated a need for more research. 
Do you have specific topics for which research should be done?
    Ms. Larence. What the study group found is that particular 
girls programs need to be better evaluated. And so they are 
trying to determine of all the menu of programs that we 
discussed earlier, what ones really are effective.
    They are trying to identify--right now--and they are trying 
to choose 10 to 12 different programs that they will set up to 
be evaluated so they can better identify what ones will work 
for communities.
    Mr. Scott. Are there specific topics that prospectively 
need--you are talking about programs that are in existence 
today, to ascertain whether or not they are making a 
difference. Is there any research that would help us try to 
develop the appropriate programs?
    Ms. Larence. Well, in a separate review that we are doing 
for you as well, it is not specifically focused on girls, but 
it is focused on effective types of juvenile justice programs, 
and so we are looking at 8 to 10 models and what the 
researchers say about those models and which ones have been 
more effective than others.
    So in that report, which we expect to issue in mid 
December, we are looking at different types of programs that do 
prove to be more promising than others. At the top of the list 
would be family-based programs that do involve the family.
    The other thing that the research shows----
    Mr. Scott. What about kind of a holistic, long-term 
prevention and early intervention strategy rather than kind of 
a focused approach, more general approach to get young people 
on the right track and keep them on the right track generally. 
As you know, I have introduced the Youth PROMISE Act, which is 
aimed at that. I know NCCD and Girls, Incorporated have 
endorsed that, that bill, which would provide grants for 
holistic programs to deal with people very early on in 
strategies to keep them on the right track from a prevention 
and early intervention approach.
    Is that being studied?
    Ms. Larence. The area that seems to be promising as well is 
to diagnose individual girls' needs. So each girl might need a 
different menu of programs to provide the best care and 
support. The most effective programs are those that take that 
individual approach as opposed to what was mentioned earlier by 
one of the young ladies about--or Ms. Jackie, I think it was, 
that trying to take a one-size-fits-all approach to programs is 
not the most successful, and instead try to assess the 
individual issues of the girls and address those needs with a 
menu.
    Mr. Scott. But the idea being to get each child on the 
right track and keep them on the right track with whatever 
needs that specific child has.
    Ms. Larence. Exactly.
    Mr. Scott. Mr. Stickrath, are there adverse consequences to 
people that are inappropriately incarcerated?
    Mr. Stickrath. Mr. Chairman, yes. We have actually had 
research by the University of Cincinnati that shows that. In 
our situation, where we were bringing, for instance, low- and 
low-moderate risk youth under some of the various level of 
service inventory, LSI scores, we were actually doing harm to 
those youth. And so that was where our research was going in 
terms of developing assessment tools so that our courts know 
when they are adjudicating the youth that level of risk.
    That goes, I think, to your earlier question in terms of 
looking for the kind of research. Know as I was trying to 
develop that assessment tools or develop an internal 
classification system for the youth in our facilities, we 
looked around and ended up, as I said, kind of reinventing or 
starting the wheel by doing it ourselves and spending a good 
bit of research dollars with our universities in Ohio to 
develop our tools.
    So those are the kind of things I think as we develop those 
and as I have developed this assessment process with the 
University of Cincinnati, or the classification, if OJJDP can 
serve as almost a clearinghouse of sorts with some of that to 
assist other jurisdictions, I think that would be helpful.
    Mr. Scott. Thank you.
    Mr. Gohmert.
    Mr. Gohmert. Mr. Stickrath, do you have suggestions that 
States should take to heart in making legislative changes in 
the States to address the needs of female juveniles in their 
custody?
    Mr. Stickrath. Yes, Mr. Gohmert. I think as State 
legislators, I think, yes, look at the way we assess youth 
coming through our system, we know that detention numbers drive 
ultimate State institution numbers; issues, of course, of 
disproportionate minority contact. I think those are State 
issues and issues we are trying to deal with in Ohio to have 
more of those options for the communities.
    As we expand our local community options, treatment 
centers, we are finding evidence-based programs like 
multisystemic therapy, family functional therapy, things that 
we have heard about here today, work. In our case, we have had 
about 800 youth go through what we call our behavioral health 
juvenile justice initiative. Kids that are on a
    pathway to my agency that, through early intervention, as 
was discussed, have avoided coming to our agency. So I think as 
States push more of those kinds of initiatives, it will pay 
dividends in the long run.
    Mr. Gohmert. Thank you.
    Ms. Larence, I appreciate your comments and what is going 
to be done by Justice. When you commented you want to involve 
the family more, you kind of looked my way because obviously 
that is a concern of mine, except it seems like the problem is, 
for most of these kids, there is no family.
    And so I guess my comments were more to the effect: Why 
isn't there a family there for these kids? What are the root 
causes? Because when we talk about prevention, I mean you can 
look one step back, what would prevent this, but seems like we 
would be bet served to go to the real heart of what created the 
different things along the way for prevention, in that regard, 
because that is something I dealt with that went across gender 
lines, guys and girls. Fathers just were not around.
    I took my own study, not scientific, of course, because it 
was people that came before me as a felony judge, but who had 
had no relationship with fathers. And it was dramatic.
    Why isn't there a family there? What have we done?
    One of the things that broke my heart when I was sentencing 
adult women is I saw repeatedly the same story where, out of 
the best of intentions, we were offering a check for each 
child--each baby a female could have out of wedlock. And so one 
would get bored and say, Hey, I'm going to have a kid. I've got 
nobody at home for me. Nobody cares. I can get a check.
    And it seemed like we lured young women into a rut and then 
they would have another and another, thinking maybe if I have 
another check, then that gets me ahead, not realizing they 
would get further and further behind, and then they would 
either go get a job and not tell the welfare workers, which 
meant now it is a felony, you have got to come to court because 
it is welfare fraud. Some of them got involved in drug dealing.
    But it was heartbreaking to me that it seemed like the 
Federal Government lured them into a rut from which there 
seemed to be no escape. That we should have been looking for 
ways to provide those young women incentives to reach their 
potential rather than to get in a rut with children they were 
too young really to take care of, not finishing high school.
    Anyway, it just seems like there have got to be better ways 
to help ensure the stability of the family or at least give 
better odds for a family existing down the road.
    Why have so many fathers been deadbeats? Why have they not 
taken an interest and seen the beauty and the wonder and the 
worth of daughters they fathered.
    Anyway, there are questions out there that seem like might 
help get us to the real root of what is happened with the 
juveniles in America. But please know that, as with the 
Chairman and the Chairman of the whole Committee, my friend 
from Puerto Rico, my friend from Texas, we are very grateful 
for the work you have done in trying to get that across to 
young women. And I appreciate your being here today. Thank you.
    Mr. Scott. Any other questions? If not, I want to thank all 
of our witnesses for the testimony here today. It is very 
powerful testimony and it points out our need to make sure we 
focus on the needs of young ladies. I think we have got some 
direction, particularly in the area of research.
    So, without objection, the hearing record will remain open 
for 7 days for inclusion of additional materials. Without 
objection, the Subcommittee now stands adjourned.
    [Whereupon, at 4:08 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of Vanessa Patino Lydia, Senior Research Associate, 
                 NCCD Center for Girls and Young Women
    Mr. Chairman and distinguished members of the Committee, thank you 
for inviting members of the audience at the subcommittee hearing on 
``Girls in the Juvenile Justice System: Strategies to Help Girls 
Achieve Their Full Potential'' on October 20, 2009 to submit written 
testimony about the issues discussed and suggestions for the Office of 
Juvenile Justice and Delinquency Prevention(OJJDP).
    The NCCD Center for Girls and Young Women has launched an 
innovative approach to tackle the competing social and systemic forces 
as well as a range of complicated issues that impact the plight of 
girls in juvenile justice This work entails a multi-pronged approach: 
1) improving the conditions of facilities, including reducing the level 
of physical and sexual abuse; 2) providing training and technical 
assistance to programs that are ill-equipped to meet the needs of 
girls; 3) increasing awareness and accurately conveying the issues and 
facts to stakeholders; and 4) continued research to fill the gaps in 
the field.
    In field research, I have interviewed over 100 girls inside the 
juvenile justice system. Their stories are reminders that our systems 
are not set up to address the complexities of what drives behaviors. 
Often the result is staff who feel challenged by girls' acting out 
behaviors and girls who pick up additional charges inside institutions. 
Girls true needs often go unnoticed. Further, the common practices 
often contribute to deeper turmoil inside of girls' already hurting 
lives. These practices include being placed naked in solitary 
confinement because they are a suicide risk, sharing undergarments, 
refusal to file a grievance, lack of medical or mental health 
attention, overuse of psychotropic medications, and frequent and 
forceful use of restraint by several staff members to ``control'' 
acting out behavior. More often than not, when girls are held down, 
feelings of loss of control and thoughts of previous abuse and 
victimization can be triggered. The American Civil Liberties Union 
reports that male corrections officers are
    ``allowed to watch the women when they are dressing, showering, or 
using the toilet, and some guards regularly harass women prisoners. 
Women also report groping and other sexual abuse by male staff during 
pat frisks and searches. For victims of prior abuse, this environment 
further exacerbates their trauma(2009).''
    Few programs have undergone documentation of their models or 
rigorous evaluation. In addition, the existing research lacks 
theoretical frameworks for how gender-responsive programs operate. This 
poses serious limitations regarding our knowledge of what works in 
programming for girls and prohibits replication of programs that are 
effective.
    The need for gender-responsive programs has been well-established. 
There exists enormous variation regarding the intervention approaches, 
gender-specific components, participants, activities, and desired 
outcomes. Even experts in the field are hard-pressed to identify which 
elements are the most effective in meeting the needs of girls.\1\ A 
focus on which components and processes are gender-responsive has been 
missing from the literature and is the logical scientific next step 
needed to build our understanding of which types and aspects of 
programming are best suited for girls.
---------------------------------------------------------------------------
    \1\ Kempf-Leonard, K. & Sample, L.L. (2000). Disparity based on 
sex: Is gender-specific treatment warranted? Justice Quarterly 17 (1), 
89-129.
---------------------------------------------------------------------------
    Further, these gaps in the research and conflicting perspectives 
between the evidence based groups and the gender-responsive groups 
create confusion among practitioners.\2\ However, there are evaluation 
topics that can benefit girls and the field and which the OJJDP should 
consider funding. These topics and potential research questions 
include:
---------------------------------------------------------------------------
    \2\ Hubbard and Matthews.
---------------------------------------------------------------------------
Program Effectiveness
        <bullet>  What are the components of gender-responsive programs 
        that make them effective?

        <bullet>  What are model culturally competent and gender-
        responsive strategies?
Conditions of Confinement
        <bullet>  What are the national conditions of confinement 
        (e.g., extent of abuse, treatment, length of stays) for 
        incarcerated girls?

        <bullet>  What are the challenges faced by staff working with 
        girls?

        <bullet>  What is the extent of gender-responsive staff 
        training across states?

        <bullet>  Which states are showing improved outcomes for girls? 
        What and how are they doing it?
Alternatives to Incarceration
        <bullet>  Pilot gender-specific alternatives to detention/
        incarceration on outcomes for girls (e.g., reduced charges 
        against staff, reduced technical violations, etc).
    It is clear that more funding is needed to address the escalating 
numbers of girls in the system and provide training and assessment 
resources to the staff providing their care. Unfortunately, even when 
funding is available, the Office of Juvenile Justice and Delinquency 
Prevention has not given priority to the issues of girls. The National 
Council on Crime and Delinquency scored 96/100 points to develop a 
National Resource and Training Center for Girls in the juvenile justice 
system but was not awarded the grant. Instead, OJJDP `` bypassed the 
top-scoring bidders for National Juvenile Justice program grants, 
giving money instead to bidders that its staff ranked far lower.'' \3\ 
Even with funding of the Girls Study Group, it is not clear the 
direction of the Department in regards to the Juvenile Justice and 
Delinquency Prevention Authorization Act and the inclusion of gender-
specific services in all states. We would like to call for the 
convening of a legislative task force that would direct the OJJDP to 
submit an annual report to the Judiciary with specific plans to address 
girls in juvenile justice and the scope of request for proposals 
(RFP's).
---------------------------------------------------------------------------
    \3\ Youth Today, March 28, 2008. Congress Probes Justice Department 
Grants: Did OJJDP play favorites with competitive bids? By Patrick 
Boyle.
---------------------------------------------------------------------------
    Thank you for allowing me to submit this written testimony.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
